No.

In the

Supreme Court ofthe United States
I
GARY VICTOR DUBIN,

Petitione4
v.
OFFICE OF DISCPLINARY COUNSEL,

Respondent.

t
PETITION FOR WRIT OF CERTIORARI
a

GanvVrcron DusrN
Counsel of Record
DuerN Lew Oprrcps
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (gos) 537-2300
Facsimile: (sos) 523-7733
Cellular: (gog) 392-9191
E -Mail: gdubin@dubinlaw.net

Petitioner
Gary Victor Dubin
Member, Supreme Court Bar

QUESTION PRESENTED

it

a violation of (1) Equal Protection, (2) Due
Process and/or (3) Freedom of Speech for a State
Supreme Court especially where exceeding its
express powers as set forth in its own State
Constitution - to discriminate against attorneys and
especially attorneys in its State advocating
unpopular causes, through claimed inherent rule'
making authority, as promulgated and/or as applied,
by denying licensed attorneys the same fundamental
procedural and evidentiary rights to a fair and

Is

impartial hearing, and to appellate review, in
defending against license revocation, BS are
otherwise constitutional rights provided by its State

Constitution through its State Legislature to all
other professionals, including physicians, and all
other occupations in its State?

LIST OF ALL PARTIES AND
CORPORATE DISCLOSURE STATEMENT

The caption of this Petition lists all

named parties, and the "Offi.ce of Disciplinary
Counsef' as the Respondent because it was
listed, over Petitioner's objection, as the
Petitioner in the disbarment proceedings
before the Hawaii Supreme Court.

This further clearly illustrates the
widespread ineptitude evidenced and
experienced below, for in reality the
Respondent is the Hawaii Supreme Court.

This is true because in disciplinary case

after disciplinary case, Iisted as "Original

Proceedings," the Hawaii Supreme Court has
painstakingly explained that the Offr.ce of
Disciplinary Counsel and its Disciplinary
Board are merely "creatures" of the Hawaii
Supreme Court, not agencies for instance,

instead "akin

to special

masters," with

therefore no independent legal capacity.

Moreover, the Hawaii Supreme Court
Rules require that the Disciplinary Board, not

the Offrce of Disciplinary Counsel, file all
charges and recommendations for discipline.

Petitioner here questions the listing of

the Offrce of Disciplinary Counsel, his
prosecutor, as the Petitioner below or as
Respondent in these certiorari proceedings,
having done so in this Petition only in
conformity with this Court's Rules, for
nowhere else in American law does it appear
the prosecutor's office or a special master is
listed as a party to a criminal or quasicriminal action.
I1

TABLE OF CONTENTS

Question Presented
List of AII Parties and Disclosure

Contents
Table of Authorities
Index to Appendix

Table of

I.

i
Statement ii
iii
v

vi

STATEMENT

1

II. AUTHORITATIVE PROVISIONS

1

JURISDICTIONAL

III. CONCISE STATEMENT

OF THE

CASE

1

IV. LEGAL ARGUMENT SUPPORTING WRIT 31
V.

CONCLUSION

Certificate of Compliance
Separate Appendix 1-4

111

36

TABLE OF AUTHORITIES

Cases

Aetna Life Insurance v. Lavoie,
475 U.S. S13 (1936)......

...34, 35

Cohen v. Hurley,
366 U.S. 117 (1e61)......

.......34

Ex Parte WalI,
107 U.S. 265 $882)......

....34

Griffin v. Illinois,
351 U.S. 12 (1e66).

...33

In re Fisher,
179 F.2d 361 (1e50)

31-32

In re Murchinson, 349 U.S. 133 (1SSS)
In re Schlesinger,
L72 A.2d835 (Pa.

1961)...

35

..........34

In re Trask,
46 Haw. 404, 380 P.2d75I (fgas).

7

United States v. Lopez,
514 U.S. 54e (1ee5)......

... ... .33

Williams v. Pennsylvania,
136

S. Ct. 1899

(zora).

35

lv

TABLE OF AUTHORITIES
(continued)

Citations to Dubin Disciplinary Cases
Office of Disciplinary Counsel v. Dubin,
2020 WL 5412696 (Haw. 2020)
Order of

..Exhibit

Office of Disciplinary Counsel v. Dubin,
2020 WL 5759014 (Haw. 2020)
Order...

Exhibit

Disbarment.

List of Dubin 1999-202l Appellate Cases
Petition..

v

1

2

... ... 14- 19

INDEX TO APPENDIX

EXHIBIT

1

Order of Disbarment
Office of Disciplinary Counsel v. Dubin
2020

wL

5412696
Hawaii Supreme Court
September 9,2020

EXHIBIT

2

Order re Reconsideration
Office of Disciplinary Counsel v. Dubin
2020

wL

5759014

Hawaii Supreme Court
September 28,2020

EXHIBIT

3

Dubin's Motion for Reconsideration
Office of Disciplinary Counsel v. Dubin
scAD-19-0000561
September 2I,2O20

EXHIBIT

4

RuIe 14 (g)(i) Compliance

v1

PETITION FOR WRIT OF CERTIORARI
I. JURISDICTIONAL STATEMENT

This Court has jurisdiction to review this

Petition, timely filed both electronically and mailed
to the Court on February 25, 202L, within 150 days
following the Hawaii Supreme Court's September 28,
2020 Order denying reconsideration of its Original
Proceeding Disbarment entered September 9, 2020.
Alt Final Orders below are set forth in the
Appendix, and pursuant to Rule f+GXil with a list of
where federal constitutional questions were raised.

This Court's jurisdiction is based on Section
12576) of Title 28 of the United States Code,

Supreme Court Rules 10(b) and (c) and 13(1), and
COVID-19 related Orders entered by this Court on
March Ig, 2020 (extending filins deadlines) and on
April 15, 2020 (modifying dbcument requirements).

II. AUTHORITATIVE PROVISIONS
The decision below is challenged based upon the
First Amendment ("Congress shall make no law . . .
abridging the freedom of speech"), and Section 1 of
the Fourteenth Amendment "[N]or shall any State
deprive any person of life, liberty, or property
without due process of law, nor deny to any person
within its jurisdiction the equal protection of the
laws").

III. CONCISE STATEMENT

OF THE CASE

Every State today regulates, by licensing

requirements, various occupational and professional
practitioners in its jurisdiction, as do many of its
cities and counties, pursuant to undeniable police
1

powers to protect the general welfare of its citizens
and residents.

The Hawaii Legislature in Title 25 of its
Revised Statutes entitled "Professions and

Occupations," pursuant to its "Uniform Professional
and Vocational Licensing Act" provides for granting
and revoking licenses for State professions and
occupations, ranging from barbers to physicians,
entrusting subsidiary rule-making authority to
specialized licensing boards and commissions under
various administrative controls.

Included therein, specifically named ate

acupuncture practitioners, athletic trainers, alarm
businesses, motor vehicle businesses, barbering,
beauty culture, boxing contests, mixed martial arts
contests, cable television systems, tele'

communications, cemeteries,

funeral

homes,

chiropractic, collection agencies, contractors, debt
adjusting, unaccredited degree granting institutions,

dental hygienists, dentistry, dietitians, dental
service organizations, electricians, plumbers,
electrologists, elevator mechanics, escrow

depositories, hearing aid dealers and fitters, health
care professionals, marriage and family therapists,
genetic counselors, massage, medicine and surgery,
mental health counselors, mortgage brokers and

real estate and collection agencies,
mortgage servicers, naturopathic medical
solicitors,

practitioners, notaries public, nurses, nurse aids,
nursing homes, opticians, pest control operators,
pharmacists, pharmacies, physical therapists, port
pilots, private investigators and guards, podiatrists,

engineers, architects, surveyors, landscape
architects, psychologists, public accountants,
radiologists, real estate appraisers, real estate

brokers and salespersons, social workers, speech
pathologists, audiologists, travel agencies, activity

providers,

undertakers,
2

embalmers,

funeral

directors, and veterinarians.

This exclusive licensing authority is derived
from Article V, Section 6, of the Hawaii State
Constitution mandating that "all executive and

administrative offi.ces, departments

and

instrumentalities of the state government and their
respective powers and duties shall be allocated by
law among and within not more than twenty
principal departments in such a manner as to group
lhe same according to common purposes and related
functions."
The Hawaii Legislature, pursuant to exclusive
licensing authority, in Section 9 of Chapter 26 of the
Hawaii Revised Statutes created the Department of
Commerce and Consumer Affairs ("DCCA"),
establishing a structure "to supervise the conduct of .
professions," governing professional and
occupational licensing, "to protect the interests of
consumers," inter alia, consisting of investigative
and enforcement officers, hearing offi.cers, voluntary
specialized advisory committees, and disciplinary
boards.

The Hawaii Legislature, pursuant exclusive

constitutional licensing authority, in Chapter 91 of

the Hawaii Revised Statutes enacted

an

Administrative Procedures Act establishing Rules
governing the conduct, inter alia, of professional
disciplinary proceedings embodying due process and
other constitutional safeguards protecting the rights
of professionals facing sanctions, including license
revocation.
Those Administrative Rules provide numerous
due process protections for those facing professional
and occupational license revocation,

Among

such safeguards
3

are:

every

complaint must be under oath subject to criminal

statutory penaltiesi delegated licensing
revocation standards must be clear

and
and
public,
unambiguousi the DCCA must represent the
not complainantsi each grievance must be separately
investigated and separately triedi the maximum
licensing sanction sought must be identified in each
discipline petitioni investigators and hearing officers

must be full time and professionally trainedi

investigators, hearing officers, and boards must be
free of conflicts of interesti ex parte contacts among
investigators, hearing offi.cers, and boards are
prohibitedi licensees must be allowed to present
evidence and call and cross-exam witnessesi clear,
convincing, published findings are required before

discipline imposedi peer group specialized
mediational and advisory boards required;
disciplinary proceedings must be confidential if and
until a license is revokedi and a nondiscretionary,
separate, independent direct appellate review is
guaranteed each licensee.

The Hawaii Constitution, Article III, Section 1,
expressly commands all State legislative power shall
be exclusively vested in the Hawaii Legislature.
The Hawaii Legislature in turn, in the exercise
of exclusive rule'making authority over licensing
and disciplining of occupations and professions, by
state statute has delegated that responsibility to the
DCCA, which administrative regulatory statutes
however are completely silent with respect to the

regulation of the Hawaii legal profession, while
licensing and disciplining physicians, for instance.

Article \II, Section 7 of the Hawaii
Constitution does expressly grant its Supreme Court
power to promulgate rules and regulations for courts

"relating to process, practice, procedure and
appeals," but that basic authority is expressly
4

restricted in the same sentence to "in all civil and
criminal cases" -- only in Hawaii courts.

And while no one questions the authority of
the Hawaii Supreme Court or any state supreme
court to regulate practice and procedures within its
state courts, that authority does not include
authority over the entire legal profession unless
provided for in state constitutions or delegated by
legislative enactments, as most Members of the Bar
perform legal services in all states totally outside of
court, as counselors and draftspersons, not litigators.

The Hawaii Legislature pursuant to Section
602'lL of its Revised Statutes, expressly recognizes
that that limited rule'making authority of the
Hawaii Supreme Court was restricted to regulating

functions within state courts, limited

to

administration and not substantive rights such as
due processl "Such rules shall not abridge, enlarge,
or modifi' the substantive rights of any litigant, nor
the jurisdiction of any of the courts, nor affect any
statute of limitations."

The Hawaii Supreme Court

following
promulgate
rules on
to
began
nevertheless
Statehood
the
regulating
its own without legislative approval,
entire Hawaii legal profession, including licensing
and disciplining of attorneys for conduct in and
outside of court, with Members of the State
Legislature either unaware of such overreaching or
relatively powerless to object.

in announcing
powers,
usurped
such broad substantive rule'making
Iegislative authority and overrode the provisions of
the Hawaii State Constitution by claiming self'
servingly that it has "the ultimate authority . . . to
oversee and control the privilege of the practice of
law in this state," Rule 1.1 of the Rules of the
The Hawaii Supreme Court,

5

Hawaii Supreme Court, entitled "Authority of
Hawaii Supreme Court," the so-called "inherent
power" doctrine.

Yet American history and practice shows state
supreme courts have never had such exclusive
"inherent" or "ultimate" authority over the legal
profession in the United States, which has instead,
even to this day, been disputed by, if not shared
with, state legislatures, state bar associations, the
American Bar Association, law schools, and even the
general public itself, individuals claiming the right
to hire whoever they want to, to advocate their
rights in court, whether licensed or not by a "nanny
state".

In colonial times there was no formal licensing
or disciplining of attorneys, looked upon more like
tradesmen, merchants and businessmen, with no
formal legal training, controlled merely by
reputation and performance in a free marketplace,
and constitutional rule-making provisions similar to
that found in the Hawaii Constitution, supra, were
interpreted as limited to rules regulating the
"practice" of courts as regards forms, the operation
and effect of processes, and the mode and time of
proceedings.

By the middle of the 19th century there were

over 100 law schools who began to acquire

a

prominent role in attorney licensing, which led to the
establishment of educational standards eventually
controlling legal profession admission throughout
the United States.
Local bar associations before 1870 were mostly
social groups, when in 1870 the Association of the
Bar of the City of New York emerged to advocate for
attorney regulation, and over 1,100 bar associations
were created by 1930, being called upon to
6

organize, discipline, and professionalize lawyers,
controlling licensing by overseeing requirements
regarding academic curriculum, library facilities and
availability of full time faculty, while at the same
time protecting lawyers from being falsely criticized.

In all of American history

there has never
been any agreed, ultimate or inherent authority of
state supreme courts to control and to regulate the
entire legal professional although many have argued
so, and more recently a joint effort by bar
associations, law schools, state legislatures, state
supreme courts, and the general public to do so.

The licensing and disciplinary models in use
today vary from state to state, from broad control by
state legislatures such as in California, to the other,
Hawaii extreme, the complete judicial regulation of
the legal profession by the Supreme Court in the
pursuant to its self-described, mistaken "inherent
authority," fn re Trask,46 Haw. 4O4, 4I5, 380 P.2d
751, 758 (fgeg) ("the primary power in that respect
rests with the court and not the legislature").

The Hawaii Supreme Court has

thus

established, through its own rule-making, a licensing
and disciplinary scheme for attorneys that on the
surface at least in form tries to closely mirror that of
the DCCA, supra, promulgating professional rules,
creating a prosecutorial Office of Disciplinary

Counsel ("ODC"),

a peer review

oversight

Disciplinary Board ("Board) consisting of attorneys
and public members, and as a final step itself the
actual disciplining body, giving what has amounted
to merely make believe window dressing purporting
fairness, impartiality, and adherence to due process
protections.

it is less important who
attorney regulatory scheme than

While ultimately

controls an

7

how fair and impartial

it

is, not only are Hawaii's

two separate but supposedly equal systems

for
licensing
attorneys
versus
licensing and disciplining
professionals such as physicians neither explained
nor justified, but in practice that dual system treats
attorneys prejudicially differently in violation of an
attorney's fundamental constitutional rights, when
compared, for example, to the separate disciplinary
standards controlling DCCA revocation proceedings.

And that is the gravamen of this Petition, for
whatever the appearance of propriety of the Order of
Disbarment set forth in the Appendix, Exhibit 1,
Dubin's constitutional fair and impartial hearing
rights were savaged in a manner totally repugnant
to the First and Fourteenth Amendments to the
United States Constitution.

By way of background, Dubin, 82, graduated
summa cum laude with an A.B. degree in 1960 from
the University of Southern California, earning his
J.D. degree cum laude from New York University
School of Law as a Root-Tilden Scholar in 1963.
He has been a Member in Good Standing of
the California State Bar since t964, the Ninth
Circuit Court of Appeals since 1964, this Court since
1976, and fulfilled all the educational and character
requirements of the State of Hawaii and studied for
and passed the Hawaii State Bar Examination and
became a Member of the Hawaii State Bar in 1982
upon relocating to Honolulu after a nationwide
practice in lender liability, as the field was called at
the time.

Dubin in more than half a century has never
been found to have violated any ethical duty to any
client in any jurisdictions, except for the most recent
Hawaii disciplinary event challenge d hereinbelow.
8

His heretofore unblemished ethical record has
extended to his early law teaching career at
Stanford, Berkeley, Denver, Harvard, USC, UCLA,
Texas, and the RAND Corporation, always found to
be of good character, being also admitted pro hac

vice in state and federal courts in

Oregon,
York,
New
New
Washington State, Arizona, Nevada,
Jersey, and Tennessee, again without ever being
disciplined for any ethical violation involving a client
or anyone else in any ofthose other venues either.

Dubin's diverse legal career has also included

employment

with Covington and Burling in

Washington, D.C., assisting Supreme Court Justice
William O. Douglas, heading a nationwide Criminal
Justice Courts Task Force appointed by President
Lyndon B. Johnson developing National Standards
and Goals for America's Courts, arguing before the
International Court of Arbitration at the Hague, and
as a national radio talk show host for the past eight
years featuring foreclosure defense issues -' again
without ever being disciplined in any of those venues
either.

Dubin moved his national Iaw practice to

Hawaii in 1982, becoming a Member of the Hawaii
State Bar, and began what no other attorney in
Hawaii was successful in doing, sustaining a
foreclosure defense practice.

Traditionally, homeowners would buy or
refinance their homes, signing promissory notes and
mortgages. The mortgages would be recorded and
the promissory notes placed in the lenders' vaults
until paid, and if the homeowners had any
difficulties in paying, both the homeowners and their
lenders, usual neighborhood banks, savings and
loans, or credit unions, would meet and try to work
out an accommodation, called a work out, with both
having mutual interest at stake in protecting their
9

relationship, the collateral, and the homeowners'
equity simultaneously.
However, some 25 years dgo, some banks
decided to experiment with "securitization," where
mortgages were transformed into securities, sliced
and diced, and traded among investment banks
serving variously as trustees and loan servicers.
Following the 911 attack on the World Trade
Towers, the U.S. Treasury Department, responding
to the ensuing financial crisis, seized on the
opportunity to jump start the national economy by
unlocking homeowners' equity otherwise just
Iiterally sitting there unused, and gave its full
support to securitization as did Congress with tax
incentives, and so began a new era in mortgage
lender.

However, various state

laws

governing

promissory notes and mortgages were designed for
the traditional lending model, ill equipped as were
this Nation's judges, to deal with securitization,
which created an entirely new industry neither
disclosed to borrowers nor understood by federal or
state judges in applying centuries old English
property law.

The securitized secondary mortgage market,
as it is sometimes called, grew so rapidly as a virtual
underground casino where close to 100 million
mortgages in one form or another were being
constantly traded and sold to investors without any
regulatory supervision and were being solicited with
Iittle if any attention to whether a homeowner could
afford the loan, and rewarded initiators who upon
immediately trading their mortgages became free of
any financial obligations, with in effect no further
liability for the first time.
10

The result was predictable. A flood

of

foreclosures followed in state courts, leading to the
Mortgage Crisis of 2008. Most homeowners were not
aware of the fact that most securitized trusts had
lost through carelessness or had for convenience
placed on microfi"che and destroyed their promissory
notes as well as mortgage assignments if any, which
led to the creation of armies of robo'signers signing
and notarizing phony re'creations for filing falsely
under oath in court and with state recording offi.ces.

Securitization had become a multi-trillion'
dollar business, with the federal government fully
aware of the problems, however being on the hook
for having guaranteed most of the mortgage loans,
and as a result the federal government, the
securitized trusts, and the loan servicers worked
together to hide the true facts from both the
American people and the courts, while preoccupied
bailing out investment banks to avoid what was
believed to otherwise become an even largely threat
to the national economy.
"Big Law," consisting of leading Wall Streetconnected law firms, fi.nanced in the hundreds of
billions according to press reports, were immediately
hired to cover up what in many instances had been
underlying predatory lending, consisting of false
appraisals, false loan applications, and false "no-doc"
financial statements, as well as lost or otherwise
nonexistent loan documentation, much of which
however was required by the common law and the
UCC before lenders could foreclose under traditional
state laws.

Being honest with our courts and borrowers
was apparently never considered to be a viable
option so long as needed documents could be falsified
and predatory lending successfully covered up. After
all, most homeowners in default could not easily
11

be expected to afford lawyers and few lawyers or
judges were trained in or understood the newer
skills and expertise that would be needed for
foreclosure defense.
Foreclosure judges were ill'prepared for such
non-traditional foreclosures and nether was the
traditional law on the books, and Big Law, Fannie

Mae, Freddie Mac, and HUD teamed up to retain
local law firms in each state, unfairly pejoratively
termed "foreclosure mills" to record and to present
their false documents in state courts, fully
blameworthy for blindly taking orders from frankly
crooks.

While a few attorneys in each state, contacted

by homeowners facing foreclosure since 911.

have

tried to help, not only have they found themselves at
a comparative disadvantage fi.nancially against the
foreclosure mills being supported by Big Law and
Fannie Mae, Freddie Mac, and HUD in the
background, but almost all of them with a few
exceptions never understood securitization in order
to be able to help, nor were their foreclosure judges
comprehending either what was really going on in
the underground secondary securitized marketplace.

As a result, the war against foreclosure
defense attorneys, Ied by state attorney regulatory
agencies, began, and a foreclosure defense practice
in the United States became and still is an
inherently dangerous enterprise in that clients
facing foreclosure are often understandably

emotional wrecksi moreover, they rarely fully
understand the legal system, and if they lose, some
are instinctively prone to turn against their
attorneys, viewing their own counsel as just a part of
what they perceive to be a rigged system, or
otherwise some are just dishonest and believe that
by complaining and embarrassing their
T2

attorney they can at least get their money back.
Previously, foreclosure judges in Hawaii as in
most states had merely asked homeowners and
commercial owners in foreclosure proceedings if they
were behind in making monthly mortgage payments,
recognizing few if any foreclosure defenses.

In the years that followed his moving his
Iender liability practice to Honolulu, Dubin created
the first successful foreclosure defense practice in
Hawaii and in the process became very controversial
and very vulnerable to regulatory abuse, ironically
due to his success as well as the hidden dangers in
representing

the general public in

foreclosure

defense.

Hawaii

is a small Statei the Hawaii legal

community even smaller. There are, for instance,
more judges in California than there are litigators in
the Hawaii, less than a few hundred appearing
regularly in our courts.

Moreover, Dubin started his Hawaii law
practice as an outsider, not having previously
attended local schools nor having family members
who were or who had been Hawaii attorneys or

Hawaii judges, otherwise often

important

credentials in small legal communities.

There have been at least three major reasons
why Dubin became controversial, Ieading to his
recent disbarment: his appellate practice, his radio
show, and ironically his increasing public support.

First, initially Hawaii trial judges, both state
and federal, were largely unable to free themselves
from feeling bound to prior local and national
established case precedent that unfairly prejudiced
homeowners in foreclosure cases, which finally led
13

Dubin to seek the help of both state and federal
appellate courts, including this Court.

In the past twenty years, in addition to
prevailing in at first over fifty low-Ievel nonjudicial
foreclosure cases, and then in both judicial

foreclosure trials, both jury and bench tried, and
hearings for his clients, Dubin began to achieve a
remarkable, unprecedented nearly one hundred
appellate victories for homeowners, some legal issues
taking him more than ten years and numerous failed
appeals before finally changing early appellate case
precedents, with many other of his appeals still
awaiting decision, most of which consumer appeals
involved foreclosure defenses, set forth below for
example in reverse chronological order, by case
name, case citation, and year decided:

2021'- Cambridge Managemenfi fnc. v. Nicole
Jadan, Hawaii Supreme Court, SCWC'17'0000176
(February 16, 202L) (decided in his client's favor

after Dubin's recent disbarment)i Wilmington
Savings Fund Society vs. Ryan, Hawaii Supreme
Court, --' P.3d ---', 2021 WL 128554 (January L4,
2021) (decided in his client's favor after Dubin's
recent Disbarment).

2020 PennyMac Corp. v. Godinez, L48
Hawai'i 323, 474 P.3d 264 Q02O; U.S. Bank Trust,
N.A., as Trustee for LSFg Master Participation
Trust v. Verhagen, 148 Hawai'i 322, 473 P.3d 783,
2020 WL 5948127 6pp. 2020; [].5. Bank National

Association as Trustee for CSMC Mortgage Loan
Trust 2006'7 v. Compton, 148 Hawai'i 275,472P.3d
42, 2020 WL 5587685 (App. 2020; Sakal v.
Association of Apartment Owners of Hawaiian
Monarch, I48 Hawai'i 1, 466 P.3d 399 Q0Z0;
HawaiiUSA Federal Credit Union v. Monalim, I47
Hawai'i 33, 464 P.3d 821 (zOZ0; U.S. Bank National
Association, as Trustee for Harborview Mortgage

I4

Loan Trust 2005-16 v. Thede, 146 Hawai'i 235, 460
P.3d 340, 2020 WL 16951ab Gpp. 2020; U.S. Bank
National Association as Trustee for SARM 05'19X5
v. Thede, 146 Hawai'i 235, 460 P.3d 340, 2020 WL
1686161 Gpp. 2020; Ifawaii National Bank v.
Chirayunon, 146 Hawai'i 118, 456 P.3d IgL, 2020
WL 4BBs68 Gpp. 2020.

2OI9 Matter of Trust Agreement Dated
June 6, 1974, as Amended, 145 Hawafi 3O0, 452
P.3d 297 (ZOfg); WeIIs Fargo Bank, N.A. v. Pierce,
I44 Hawai'i 436, 443 P.Sd I28, 2019 WL 1254039
Gpp. 2019); Wilmington Sauings Fund Society, FSB
v. Akehi, t44 Hawai'i 430, 433 P.3d I22, 2019 WL
2559486 Gpp. 2010; PL ilI LLC v. Puu Lani Ranch
Corp, 144 Hawai'i 385, 442 P.3d 448, 2109 WL
2281269 6pp. 20I$; U.S. Bank National
Association v. Jung Hoon Kim, I44 Hawal'i 383, 442
P.}d. 446, 20Ig WL 2205680 Gpp. 2019); Bank of
Ifawai'i v. Marques, 144 Hawai'i 379, 442 P.3d 442,
2OIg WL 2082546 6pp. 20t$; Association of
Apartment Owners of

Terrazza/Cortebella/Las
Brisas/Tiburon v. Lopez, L44 Haw. 5, 433 P.3d 662,
2}lg Haw. App. LEXIS 34, 2019 WL 336919 (2019);
WeIIs Fargo, N.A. v. CoIe, I44 Haw. 6,433P.3d 444,
2OIg Haw. App. LEXIS 35, zOLg WL 351213 (2019);
fn re Davis, 144 Haw. 65, 435 P.3d 1079, 20Lg Haw.
App. LEXIS 84, 2019 WL 967783 (2019), Bayuiew
Loan Servicing LLC v. Woods, 2019 Haw. App.
LEXIS I22, 2019 WL 1254039 (2019); fn re Trustees
under the WilI of Estate of Campbell, 20L9 Haw.
App. LEXIS 132, 2019 WL 1292282 Q}Lil.
2018

" FederuI National Mortgage

Association

Amaral,I42Hawai'i 356, 418 P.3d L2I2,2018 WL
2425855 (zOfg); WeIIs Fargo Bank M.A. v. Behrendt,
142Haw.37,4L4 P.3d 89 (ZOfS); Bank of New York
MeIIon v. St John, CAAP'17-0000436 Gpp. 2018);
tl.S. Bank Trust v. Schranz, CAAP-!7-0000519 Gpp.
2013); IISBC Bank USA v. Bartolome, 2018 Haw.
v.

15

App. LEXIS 285 (zors); tl.S. Bank v. Kotak, 2018
Haw. App. 264 e}L$; Wilmington Savings Fund
Society v. Riopta,2018 Haw. App. LEXIS 270, 2018
WL 2928182 (201s); tl.S. Bank v. Swink,2018 Haw.
App. LEXIS 236, 2018 WL 2714851 (ZO1S);
JPMorgan Chase Bank v. Rundgren, 2018 Haw.

App. LEXIS 228 (zofs); MTGLQ fnvestors

v.

Brennan, 2018 Haw. App. LEXIS 226, 2018 WL
2439384 (ZOfg); Fannie Mae v. Amaral, 2018 Haw.
App. LEXIS 224 (zOfs); BIue Mountain Homes v.
Page, I42 Haw. 354, 2018 Haw. App. LEXIS 210
(zors); IISBC Bank USA v. Moore, 2018 Haw. App.
LEXIS 156, 142 Haw. 210, 4L6 P.3d 931 (ZOn); U.s.
Bank v. Fergerstrom, 2018 Haw. App. LEXIS 180,
2018 WL 2110079 (2018); Bayuiew Loan Servicing v.
Pierce,2018 Haw. App. LEXIS 162 (ZO1A); Bank of
Hawaii v. Kimi, CAAP'17-0000712 (zOfS); Sakal v.
Association of Apartment Owners of Hawaiian
Monarch, 143 Haw. 2I9, 426 P.3d 443, 2018 Haw.
App. LEXIS 356, 2018 WL 3583580 (ZO1S);
PennyMac Corp. v. Travis, 143 Haw. 329, 430 P.3d
890, 2018 Haw. App. LEXIS 466, 2018 WL 6074792
(ZOf A); Association of Apartment Owners of Century
Center v. Young Jin An, 143 Haw. 523, 432 P.3d 2,
2018 LEXIS Haw. App. 501, 2018 WL 6716879
(ZOfS); Eamirez v. Aurora Loan Servicing 143 Haw.
524, 432 P.3d 3, 2OI8 LEXIS Haw. App. LEXIS 507,
2018 WL 6804180 (2018); Bank of New York MeIIon
v. West, 143 Haw. 525, 432 P.3d 4, 2018 Haw. App.
LEXIS 509, 2018 WL 6818681 (2018).
20L7 -- Bank of America, N.A. v. Miyake, 139
Hawai'i 426, 391 P.3d 1248, 2016 WL 3548347
(ZOtl); U.S. Bank v. Mattos, 140 Haw. 26, 398 P.3d

615 e}fl); nSgC Bank USA v. Yamashita, 2017
Haw. App. LEXIS 482 QOtl); Deutsche Bank

National Trust Company v. Garcia,20L7 Haw. App.
LEXIS 322, 2017 WL 2829398 Q}tt); Bank of
America v. Yeh, CAAP'16-0000128 QOtl); tl.S. Bank
v. Wright,z}l7 Haw. App. LEXIS 27O, 2017 WL
16

27s;6s4 (zott).
2016 '- Association of Apartment Owners of
Century Center v. Young Ja An, 139 Haw. 278,389
P.3d 115 (ZOfe); Mount v. Apao, 139 Haw. L67,384
P.3d 1268 (4 Consolidated Separate Appeals 2016);
Federal Home Loan Mortgage Corporation v. Moote,
2016 Haw. App. LEXIS 514 (ZO1A); First lfofizon
Home Loans v. GaLiza,138 Haw. I42,377 P.3d 1060
Gpp. 20td; Bank of Hawaii v. Mostoufi, 138 Haw.
I[f, 377 P.3d 1059 Gpp. zord; Association of
Apartment Owners of Century Center v. Nomura,
f gS Haw. I4I, 377 P.3d 1059 6PP. 20IO;
Association of Apartment Owners of Centuty Center
v. Thai l{awaiian Massage, fnc., I38 Haw. 140, 377
P.3d 1058 Gpp. 20Ld; Bank of New York MeIIon v.
Lizarraga, 13S Haw. 51, 375 P.3d 12Sg (App. 2016);
Association of Apartment Owners of Century Center
fnc. v. Nomura, 138 Haw. 51, 375 P.3d 1289 6pp.
2016); JPMorgan Chase Bank v. Benner, 137 Haw.
326, 372 P.5d 358 (App. 2016); Association of
Apartment Owners of Century Center fnc. v. You!€
Jln An, 137 Haw. 204, 366 P.3d 1083 Gpp. 20ld;
U.S. Bank v. Smith, 2015 Haw. App. LEXIS 617
(zore).
2OI5 -- Takushi v BAC Home Loans Servicing
LP, 20t5 U.S. LEXIS 634, 135 S. Ct. 1152, 190 L.
Ed. 2d 909i Santiago v. Tanaka, 137 Haw. 137, 366
P.3d 612 (ZO1S); Mount v. Apao, 136 Haw. 365, 361

P.3d 1263 Gpp. 2010; Hawaii National Bank v.
Chirayunon, igO Haw. 372, 362 P.3d 805 Gpp.
2015).

2OI4

Lee v. Mortgage Electrontc
Inc. (In re Mortgage

Registration Systems,

Electronic Registration Systems (MERS)), 555 Fed.
Appx. 66L, 2014 U.S. App. LEXIS 2019, 2014 WL
351358 QO|D; Krog v. Koahou, 133 Haw. 186, 324
P.3d 996 (zOt0; Pappas v. Duran, 134 Haw. t79,
T7

339 P.3d 533 Gpp. 2014); Tanaka v. Santiago, I33
Haw. 510, 331 P.3d 488 Gpp. 2014); American
Savings Bank v. Ridde|, 134 Haw. IL4; 334P.3d 777
Gpp. 2014); .Federal National Mortgage Association
v. Brown,133 Haw. 452,330 P.3d 390 (App. 20Iq.

zOLg Scroggin v. Mandarin Oriental
Management (LIS'A), 129 Haw. 106, 294 P.3d 1092
(ZOfg); Karpeles Manuscript Library v. Duarte, I29
Haw. 90,294 P.3d 1076 Gpp. 2013).
2012 -- fsobe v. Sakatani, 2012 Haw. App.
LEXIS 587, 2012 WL 1951$2 Q0I2); WeIIs Fargo
Bank v. Markley, 126 Haw. 265, 269 P.3d 800 Gpp.
20t2).

20II -- Low v. Minichino,

126 Haw. 99, 267
P.3d 683 6pp. 2011); tl.S. Bank v. Salvacion,20lI
Haw. App. LEXIS 387 (zorr).

2009

State v. Bereday, 2009 Haw. App.
LEXIS 246 e009); Doe v. Doe, 120 Haw. L49, 202
P.3d 610 Gpp. 2009).

2008 -- Bank of l{awaii v. Shinn, 120 Haw. 1,
200 P.3d 370 (2008); Moyle v. Y & Y f{yup Shin
Corporation 118 Haw. 385, 191 P. 3d 1062, amended
2008 Haw. LEXIS 205 (ZOO8); Western .Financial
Bank v. Raras,2008 Haw. App. LEXIS 313 (ZOOS).
2006 " 808 Development, LLC v. Murakami,
111 Haw. 349 (2006); Mohr v. fng,2006 Haw. App.
LEXrS 180 (2006).
2005 -- KNG Corporation v. Kim, 107 Haw
73, 110 P. 397 (ZOO5).
2003 '- Dunster v. Dunster,2003 Haw. App.
LEXrS 46 (2003).
18

2002

MeIIon Mortgage ComPanY vHaw. App.- LEXIS 2L QOOZ);
2002
Bumanglag,
Associates Financial Services Company of Hawaii vRichardson, 99 Haw. 446, 56 P.3d 7a8 (App. 2002);
Norwest Mortgage v. De Rego, 2002 Haw. App.
LEXrS e (2002).

2001 -' GE Capital HawaiI v. Yonenaka, 96
Haw. 32,25 P.3d 807 6pp. 2001).

2000 lfawaii

Community Fedetal Credit
[Jnion v. Keka, 94 Haw. 2t3, Il P.3d 1 QOOD; Cg
Capital Hawai'i v. Barlan, 2000 Haw. App. LEXIS

113 (2000).

1999 " GE Capital HawaiI v. Miguel,92 Haw.
236, 990 P.2d 134 6pp. 1999).
Second, and if all of those appellate victories,
many of which have cost and will cost lenders
millions if not hundreds of millions of dollars
annually, were not enough to generate antagonism

and vendettas among some losing counsel and some
vested interests, Dubin also started his own, self'

financed, one'hour weekly radio talk show on
Hawaii's major local A.M. station KHVH, co-hosted
by former Hawaii Governor John D. Waihee III with
his legislative and executive experience adding
enormously to the show, the first of its kind, which
became syndicated throughout the United States on
iHeart Radio.
Eventually building a local and national radio
audience, including some judges and some state
Iegislators, of over several hundred thousand
listeners weekly, Dubin would discuss various
foreclosure defense issues, recent judicial decisions,
and needed improvements in the local legal system,
which was the first time that the general public as
well as the entire legal community, including
19

local judges, became aware of what was actually
going on in all Hawaii Courts.

That pioneering effort was appreciated by
many, not everyone, and the ODC, later prosecuting
Dubin used those radio broadcasts, ignoring the
First Amendment, as one of the major reasons to

disbar him, even trying to justifu an emergency
interim suspension, arguing to the Hawaii Supreme
Court that Dubin's weekly radio shows were "a
menace to the general public".

The ODC staff member making that charge in
papers
before the Hawaii Supreme Court, who
court
appears not to have practiced law in his entire life,
was subsequently promoted.

That was truly a ridiculous, animus charge.
Dubin's weekly topics, often with guests, did address
some highly controversial subjects, but always in a
thoroughly respectful and professional manner, a
few of which shows during his eight years of
broadcasting prior to his disbarment included, for
instance, the following featured topics, illustrative of
all eight years, all over 400 hours of which past
weekly broadcasts are archived and can be listened
to at www.foreclosurehour.com by Members of this
Court and by its staff:

E.g., "The Abolition of Unjust
Enrichment in the Awarding of -Foreclosure

2020

Deficiency Judgments, the Emerging Maiority RuId'
(May); " The llidden Secrets Behind Legal Reasoning
That Every lfomeowner Needs To Know To Survive
Foreclosurd' (March)i "The United States Supreme
Court and the Current .Foreclosure Crisis: The

Causes and Effects of a Ten-Year Eecord of
Institutional Neglec,/' (February); "Do Some Judges
Discriminate Against l{omeowners fn Foreclosure
20

And

If So What Can Be Done About It?' (January).

2OI9 E.g., "'Larry the Banker' fs Back:
Exclusive TeII-AII fnturview With Retired Big Five
Bank Executivd' (December); " What Every

Homeowners Needs To Know About When And How
A Lender's Attempted Acceleration' and Subsequent
[Jnilatera] Deceleration' Of Mortgage Balances
Affects The Running Of The Statute Of Limitations
And Hence Foreclosure Defensd' (October); " What
Every lfomeowner Needs To Know About The Myths

And Realities Of

Custodians

Of

Records In

Defending Against Foreclosurd' (July); "What Every
Homeowner Needs To Know About The Myths And
Realities Of Foreclosure Auctions As A Defense To
Forfeiture in Foreclosurd' (.luty); "The 68 Mostly
[Jnder (Jsed Affrrmative Defenses That Can Save
Your l{ome From Foreclosure And You And Your
Family From Evictiod' (June); "fs a Homeownet's
Appeal Moot [Ipon the Sa]e of Foreclosed Property?'
(Mav); "The 20 Most Overlooked -Foteclosure
Defensed' (March).

2018 -- E.g., "Myths and Realities That Evety

Homeowner Needs To Know About Truth'In'
Lending Act (TILA) Rescissions As A Defense To
Foreclosurd' (December); "IIow To Draft Discovery
Requests That WiII Defeat Foreclosurd' (September);
" Ten Strategies for Defeating Foreclosure by
Objecting to the Admissibility of Business Records as
an- Exception to the Hearsay RuId' (August); "Ifow
To Disprove Standing of Pretender Lenders in
.Fore cI os ure Procee din gs by Offe n s ively We ap on i zi n g
Your Discovery Even- if Appearing Pro ,Se' (JuIy);
" [.Jnderstanding Hawaii's 25 New Forec]osure
Standing Requirementd' (.luty); "Does a Different
Statute of Limitations Apply to the Enforcement of
Mortgages than to the Enforcement of Notes?'
(May); " Congratulations, You Defeated Plaintilfs
Motion for Summary Judgment, But Do You
2T

Know The Ten Things You Need To Do Next?'
(April); " Ten [Irgently Needed Structura] Reforms of
the American Foreclosure System Completely Out of
Servicd' (February).

20L7 -- E.g., "What Every llomeowner Needs
To Know To Emotionally Survive Foreclosurd'
(November); "What Every Homeowner Threatened
With Foreclosure Needs To Know About the

Advantages and Disadvantages of Bankruptcf'
(August); " 70 Ways Courts Could Easily Reduce

Otherwise fncreasing Residential Foreclosute Case
Backlogs by More Than 95% While Ptotecting
I{omeowners at the Same Time -- Are Any Judges
Listening?' (July); " 70 Easy Ways To Lose a Judicial
Foreclosure Case: The Most Common Mistakes Made
Defending Against Foreclosurd' (June); " The RuIe
Ritual, Neil Gorsuch, and the Case of the Frozen
Truck Driver -- Its Signifrcance for the Future of
Foreclosure Defensd'(MarcD; "IIow Fannie Mae and
Freddie Mac Were Used To Steal Public Pension
Fundd' (February)i "Ten Things That. Evety
Foreclosure Judge Needs To Knovt''(January).

E.g., "Special Checklist of Ifuenty
Proven Ways of Bulldozing Through a Foreclosing
Mortgagee's Dismissal and Summary Judgment

2016

FirewaIIC' (November)i "securities Fraud; fn Search
of the ltoly Grail of Foreclosure Defensd' (July), " The
Notice of Default And Right To Cute -' How To Use
This Most Overlooked Foreclosure Defense To Defeat
Summary Judgment And Win At Trial' (.luty);
" What Every Homeowner Needs To Know About
Loan ModificationC' (June); "How to Use a Fotensic
Audit in Your Defensd' (February)i "How To Use The
Rules of Evidence As Your Defensd'(February).

2015 -- E.g., "What Every lfomeowner Needs
To Know About Foreclosure Defense Attorneys: Why

They Remain An Endangered
22

SPecies

And What If Anything Can Be Done About It'

(December); " What Every I{omeowner Needs To
Know About Suruiving In Foreclosure Courf'
(November); " What Every Ifomeowner Needs To
Know About Force-Placed Insurancd' (October); " Ten
Ilidden Seuets of Securitized Trusts They
Desperately Do Not Want You or Yout Judge To
Knovt'' (August); "25 Ways in Which Foreclosure
Attorneys Are Knowingly Committing Fraud On Our

State and Federal Courti' (June); " Exposing The
Top Ten Worst .Foreclosure Frauds Of This Centurf'
(May); "A 29-Count Indictment Against the.Maiority
of America's Foreclosure JudgeC' (MarcDi " What
Everv lfomeowner Needs To Know About Robo
Notiried' (March); " Exclusive TeII-AII fnturview with
Bank of America Robo Whistle Blowel' (March); "20
Winning Ways To Defeat Promissory l{otes fn
Fore clos ure Proce e di ngC' (February).

2014 E.g., " Exclusive TeII-AII fnteruiew
Big Five Bank Executird' (December);
Retired
With
" What Every Homeowner Needs To Know About

Deficiency JudgmentC' (November); " Ways of
Defeating Foreclosure Summary JudgmentC'
(November); " What Every Ifomeowner Needs To
Know About Appellate JudgeC' (October); " What
Every Homeowner Needs To Know About
Foreclosure Judgeg' (September); " What the
Government does not want you to know about its 17
bilIion dollar settlement with the Bank of Ameticd'
(August); "Exposing the Mainland Mortgage Mafid'
(August); "Deadbeats Are Not The Problem: The
Legal System ,l'C' (July)i "Piercing the Securitized

VeiI' (Vtay); "7,000 and One Ways To.Defeat

Foreclosures by Securitized Trustd' (March) , " The
Advantages of Public vs. Private Bank{' (February);
" Special Robo-Signer Exclusive Exposd' (January).

20t3

E.g., "Most Signifrcant

.Foreclosure News

Events and
23

2013

Awardd'

(December); "No Foreclosure fs Hopeless: Your Note
Is Paid Off (November); "securitization fssues,
Foreclosure and Bankruptcl' (October);
" (Jnderstanding the history and functions of MERS'
(September).

Third, as a result of Dubin's increasing trial
and appellate victories and his pro hac vice practice
in other jurisdictions, including in Canada, now also
embarrassingly shut down as a result of his
disbarment, Dubin became one of the leading
foreclosure defense attorneys in North America and
the Hawaii Judiciary rightfully considered to be one
of the most knowledgeable and respected in the
entire United States.

thousands of unsolicited testimonials
probably never before received in such volume and
with such praise by any attorney, too numerous to be
quoted herei a partial list can be read on Dubin's
*ebsite, www.foreclosurehour.com, hardly the kind
of angry "obituaries" a disbarred attorney might be
expected to receive.

The ODC meanwhile followed the recent
national trend, prosecuting half a dozen Hawaii
foreclosure attorneys, leading mostly to disbarments,

prior to going after Dubin, through its ignorance
eyeing foreclosure defense attorneys as taking
money from vulnerable foreclosure defendants
behind on mortgages, having no defenses.

While those charges against some may well
have been true, it was certainly not the case with
regard to Dubin, whose record speaks for itself, but
Dubin became the most obvious and prominent, big
target prize to go after, a disbenefit of being
successful, by those at the ODC coveting promotions,
or for other personal reasons like jealousy.
24

All nationwide attorney disciplinary agencies,
tike the ODC, began acting in unison, targeting

foreclosure defense attorneys, sending memos to
each other encouraging a regulatory disbarment
sweep, to the point where the ODC even posted an
advertisement on Craigs' List asking any client
dissatisfied with Dubin's performance to contact
them immediately.

Dubin became raw meat for the ODC, who
subjected him to procedures that likely would have
even made ancient Judges of the English Star
Chamber blush, allowing him through all four years
trying to disbar him none of the DCCA protections
given members of other professions and occupations
constitutional
rulesl
own
violating
their
deprivations, even

in Hawaii, a virtual orgy of

For instance, of the very few complaints
received against Dubin, one was allowed to be signed
anonymously and docketed even though eight years
old;,
For instance, all were based on vague and
contradictory ethical rules even said

in

their

preamble as guides onlyi

For instance, all were docketed

and

investigations delayed, putting Dubin to the costly
burden of preparing a defense and submitting
voluminous requested boiler plate documentation
even if not related to what was being complained

about,

a dream fishing

expedition

for

abusive

prosecutorsi

For instance, the four complaints the

ODC
one

had, aII frivolous, were lumped together in

petition for discipline and tried together although
unrelated, each case being used to prejudice the
others.
25

For instance, the ODC's petition for discipline
requested only one specific sanction, attending ethics
classes, hiding seeking disbarment until after the
time to extend confi.dentiality had expiredi Dubin
was thus tricked not to seek to extend the
confidential period, as a result appearing in various
media stories that severely injured his law practice
and cash flow, causing clients to leave him and
potential new clients to keep away.
For instance, the ODC investigator exclusively
assigned to Dubin's cases was former wife and
paralegal of a notorious ambulance chaser who filed
two malpractice cases against Dubin, both dismissed
with prejudice, Dubin being awarded summary
judgment and his fees and costs in the second one,
who put a TV ad on cable TV accusing several
attorneys, including Dubin, of legal malpractice
while she was working for hm, obviously having
placed those cable ads, and when Dubin asked the
Board Chairperson for reassignment to another
investigator, he was ignored.

For instance, the volunteer ODC hearing

offi.cer nonrandomly selected

by the

Board
Chairperson was at the same time opposing counsel
of Dubin in an ongoing civil case, who had lost his
client's appeal in that case which Dubin had won,
and upon remand, settlement negotiations were still
ongoing while nevertheless Dubin's hearing officer,
yet refusing to recuse himself.

For instance, the Board Chairperson,

admitted later on the record that an attorney with
the loudest of loud mouths on the Board had told
him privately, before the hearing scheduled to
determine what discipline if any to recommend to

the Hawaii Supreme Court, that that Board Member
was acrimoniously opposing attorney in two of
Dubin's lower court cases and two of Dubin's
26

appellate cases, yet was told not to disclose
Board Meeting.

it at the

For instance, the ODC rehired as

Special

Counsel a former staff attorney to prosecute Dubin
before the Hawaii Supreme Court, although she had
represented Dubin as an attorney in defeating an
ODC prior targeting of him, and when she denied
having received a retainer from Dubin, and Dubin
presented a copy of his $15,000 check to her to the
Court, the Court disqualified her and the entire ODC
staff over the ODC's objection, but she had already
fiIed the disbarment Petition with the Court.

For instance, during Dubin's proceedings, the
had
been providing ex parte communications to
ODC
Members of the Hawaii Supreme Court behind

Dubin's back pertaining to alleged additional
complaints from clients to the ODC piling up against
Dubin which was not true, prejudicing Dubin's case,
and when Dubin post-disbarment found out about it
and that it was the Court's stated policy to accept
prejudicial ex parte communications from the ODC
which it labeled one of its "creatures" being "akin to
special masters," the Court did not deny it, saying
only it played no part in the disposition of Dubin's

case, although receipt of such ex parte
communications is itself prohibited by the Hawaii
Rules of Professional Conduct and the Hawaii
Revised Code of Judicial Conduct.

For instance, at his omnibus fourcase
hearing, the conflicted hearing officer denied Dubin
his right to cross'examine the wife of one
complainant although she was clearly a joint
complainant, yet her testimony was nevertheless
allowed in indirectly through testimony of her
husband, and despite Dubin's belief she had
authored the anonymous complaint, supra.
27

For instance, the hearing officer adopted the
ODC's proposed findings and recommendation

without changing a single syllable or single
punctuation mark, and the Board did the same
thing, whereas the Hawaii Supreme Court in turn
ignored those ridiculously one-sided and

unsupported findings, coming up with its own
findings without giving Dubin a chance to respond.

For instance, no ODC staff member knew

anything about foreclosure defense or about the
problems dealing with emotional homeowners, nor
aid ttre hearing offi.cer or Board Members, hardly
their specialty, who were attorneys representing
Iandlords and anti'consumer clients, in no way

Dubin's peers from the standpoint of able to
appreciate the perils of homeowner representation.
Th-e analogy would be as

if the DCCA

empaneled a

foot doctors to review a complaint against a brain
surgeon.

For instance, Dubin was denied the ability to
seek nondiscretionary appellate review of the
Disbarment Order, which was the first original
proceeding adversely affecting his right to practice
law, whereas the termination of a DCCA license, for
instance of a physician, may be appealed to Circuit
Court and thereafter the Intermediate Court of
Appeals.

The flagrantly vicious, unchecked "gotcha"
animosity with which the ODC targeted Dubin

speaks for itself. Yet, despite the ODC's targeting of
Dubin and its attempt to create a false narrative of

misconduct, the ODC failed to prove its case'
producing no clear and convincing evidence of
misconduct.

a

However, the ODC did succeed in convincing
busy Hawaii Supreme Court, with increasing
28

caseloads, one Justice short, and by constant
complications caused by COVID-19, to enter its
Order of Disbarment with eight adverse fi.ndings in
three of the four separate cases tried together, the
fourth case dropped completely: "We find and
conclude, by clear and convincing evidence, that
Petitioner Gary V. Dubin committed the following
misconduct."

The real tragedy in aII of this is that
ironically, supposedly acting to protect the general
public, the Hawaii Supreme Court hurt the very
people it was trying to protect, Dubin's clients, who
were excluded from testifiiing at the Board hearing
and upon his disbarment lost their investment in his
lawyering and foreclosure defense representation,
since there are virtually no other fully competent
foreclosure defense attorney in Hawaii.
Dubin's displaced clients are not the type to
scale the walls of the courthouse, but deserved to be
heard, but they were excluded from Dubin's
disciplinary hearings by the hearing officer, and
many of them have now banded together to consider
seeking leave to fiIe an amicus brief in this
proceeding as the real parties in interest, the general
public, and the list grows every day, and this Court
may be hearing from all of them:

Christie Adamsi Toru Akehii Gwen Alejo'Herringi
Debra Anagaran; Dirk Apaoi Margaret Apaoi Jerry
Baduai Julia Baduai Liao Lucy Bambooi Mia Bani
Roman Baptistel Charles Bassi Laura Bassl Agripino
Pascua Bonillai Ruth Rojas Bonillai Sherilyn May
Rojas Bonillai Donna Brooksi David R. Browni
Christy Carricoi Phineas Casadyi Joyce Chandleri
William Chandleri Jennifer Chapmani Stephen
Cheikesi Mervin Halfred Naea Chingi Lucia Ching;
Sutah Chirayunoni Seung Choii Brett Christiansenl
Ah Mei Chuni Hugh John Coflini Janet Coflini
29

Russel Colei Paul Collinsi Watoshna Lynn Comptoni
George Costai Gregory Clyde Souza Cravalhoi Toni
Noelani Cravalhoi Roger Cundall; William Davisi

Vandetta Davisi Yukiko Hayashi Dayi Paige De
Pontei Fatima Duncani David Wendell Ellisi Lori
Lynn Ellisi Janice Ellisoni Scott Ellisoni Nelie
Baniaga Escalantei Norberto Ramelb Escalantei
Akiko Fergerstromi Justin Fergerstromi Michele
Lisa Freepartneri John Freepartneri Michael J.
Fuchsi Edna Gantti Paul Gantti Leah Gillespiei
Robert Gillespiel Elizabeth Gillettei David Goodwini
Malia Gracei Antonio Grafi.Ioi Nelia Grafiloi Howard
Greenbergi Kenneth Hagmanni Michael Hammerl
Darryl Hashidal Nicole Flores Hosakai Tod Hosakai
Christian Jenseni David Kaplanl Donald Karleeni
Beata Karpusiewiczi Jaroslaw Karpusiewiczl Eleana
Keahii Yvonne Keahii Keith Kimii Oteliah Kindi
Kory Kleini Mary Knudseni Ralph Knudseni Lenore
Lannoni Robert Lannoni Stephen Laudigi Mallory
Aspili Longboyi Shari Arakawa Longboyi Frank
James Lyoni Eric Maderi Gwen Marcantonioi Mark
Marcantonioi Armand Maribohoi Darla Maribohoi

Maryellen Markleyi Laura Marquezi William
McThewsoni Emilou N.A. Mikamii Rickey R.
Mikamii Jonnaven Jo Monalimi Misty Marie
Monalimi Roger Moorei Teresa Moorei Thomas
Mortoni Terry Lynne Ohara Moseleyi Ailyn

Ounyoungi Samrit Ounyoungi David L. Owlesi Lori
Y. Owlesi Raquel Pachecoi John Perreirai Rose
Perreirai Michael Piercel Mario Portilloi Eboni
Prenticei Rosario Ramosi Lurline Rapozai Merrillyn
M.J.L. Rapozai John Riddel, Jr.i Jeanette Rosehilli
Marcus Rosehill; Ray J. Ruddyi Michele Colleen
Rundgreni Todd Rundgreni Jo Russoi John Savagei
Ronald Schranzi Jason Siegfriedi Meleana Smith;

Jodi Solbachi Elizabeth Spectori Daniel Joseph
Spencei Elaine Damloa Spencei Eileen Evelyn
Stephensoni Connie Swierski; David Swierski;
Bonnie Swinki Jack Swink; Evelyn Takenakai
Nadine Tamayosei Reid Tamayosei Karri
30

Teshimal Clover Thedei Dylan Thedei Lana M.

Toleafoai Saumani Lopi ToIe afoai Elise Travisi Bruce
Robert Travisi Darren Tsuchiyai Lance Tsuchiyai
Malia Olivas Tsuchiyai Anthony Tuckeri Gladys
Tupuluai Hedy Udarbei Rustico Udarbei Valerie
Uyedai Jon Van Cleave, M.D.; Patrick Verhageni
Stephen Ward; Donovan Webbi Valerie Woodsi Jack
Youngi and Patsy Young.

Please know that aII eight of the Court's
disbarment findings are factually unfounded and
were completely discredited by Dubin in his motion
for reconsideration after receiving them without
notice, however his motion matter-of-factly denied.

Dubin is not asking this Court to try his
disciplinary case, aware that this is not a trial court,
but instead to set aside his disbarment as a matter
of law based on egregious violations of his First and
Fourteenth Amendment Rights to Equal Protection,
Due Process, and Free Speech.

At the same time, Dubin wishes to dissuade
this Court from believing that he did anything
wrong, certainly nothing to warrant disbarment,

and, for that reason only, included as Exhibit 3 in
reconsideration
(without its voluminous exhibits however, available
to the Court electronically on the Hawaii Judiciary
Website), therein responding to every alleged factual
finding against him that emerged from the Star
Chamber proceedings he faced, and the denial
thereof is set forth as Exhibit 2 to the Appendix.

the Appendix is his motion for

IV. LEGAL ARGUMENT SUPPORTING WRIT

The repercussions of disbarment are enormous,
as explained by Chief Judge Major of the Seventh
Circuit Court of Appeals in .Iz re Fisher, I79 F.2d
31

361, 370 (tgfo), quoting earlier Illinois

State

Supreme Court Opinions:

"The disbarment of an attorney

is the destruction of his
professional life, his character,
and his livelihood.:k?k**tr A
removal of an attorney from
practice for a period of years
entails the complete loss of a
clientele with its consequent
uphill road of patient waiting to
again re-establish himself in the
eyes of the public, in the good
graces of the courts and his

fellow lawyers. In the
meantime, his income and
livelihood have ceased to exist."

Firct, the Order of Disbarment should

be

reviewed and reversed by this Court because Dubin's
right to equal protection was clearly violated.
Members of every other profession and every
other occupation in Hawaii, from physicians to
barbers to loan brokers and so on, not only have
their procedural due process rights safeguarded as
explained above, but are entitled to an automatic

appellate review

of a final DCCA final

license

revocation in two consecutive state courts.

It is only attorneys who are

treated
differently, the first and final attorney adjudication,
for instance, taking place by the Hawaii Supreme
Court, with only a discretionary direct appeal
possible to this Court by writ of certiorari, in which
lhe chances for review regarding the adequacy of the
findings on grounds of evidence insuffi.ciency are nil,
numbers'wise.
32

As Justice Black in Grilfrn v. Illinois,35l U.S.
12 (1966), explained, a state is, for instance, not
required to provide for any appeal, but it cannot
discriminate by allowing some to appeal and not
allowing others that same equal right.

There has been a literal explosion of such
attorney disbarments throughout the United States
in recent years in our "cancel culture," at least two
others seeking certiorari review in this Court, denied
recently, in an area of the law urgently needing
attention and leadership from this Court.
Moreover, in straying from the requirements
of Equal Protection, the Hawaii Supreme Court did
so by asserting inherent rule-making authority not
given to it in the Hawaii State Constitution, nor
delegated to it by the State Legislature, a further

troubling equal protection, ultra vires issue
heightening the need for review; Ct United States v.
Lopez,514 U.S. 549, 567 (fggS).

Second, the record of Dubin's disciplinary
proceedings is filled with Due Process violations,

abridging his rights to present and cross-examine
witnesses and to a fair trial, most notably in the
context of disciplinary proceedings, the most
fundamental requirement of a fair trial being a
trained, impartial, unconflicted hearing offi.cer and
administrative review Board, yet in Dubin's case he
had neither, not even an unconflicted investigator.
These due process issues have a long and
unresolved, twisted history in this Court.
Throughout the past approximately 100 years
our courts have often tried to assert inherent
jurisdiction over attorneys using summary
proceedings, creating many constitutional
33

concerns, Ex Parte WalI, 107 U.S. 265,274 (fAgZ).

In

lI7 (tget),
Justices Black, Douglas, Brennan, Warren
dissenting, upheld disbarment of an attorney
Cohen v. Ifurley, 366 U.S.

exercising his Fifth Amendment right to silence.

In fn re Schlesinger, the Pennsylvania
Supreme Court, I72 A.2d 835, 840 (pa. 1961),
paralleling the dissent in Cohen, set aside summary
disbarment based upon being a Member of the
Communist Party.

It had reportedly been commonplace in early
English Courts to discipline attorneys, thought their
servants, almost ruthlessly, forgetting that such
powers were one reason the colonists broke away
from England and adopted the Fourteenth
Amendment.
The most flagrant due process violation in
Dubin's case was the Board Chairperson hiding the
fact one Board Member before Dubin's hearing
confided in him he had an obvious conflict of
interest, being one of Dubin's opposing attorneys in
two civil cases and two ongoing appeals.

And that was no mere inadvertent omission,
for that same Chairperson at the start of the hearing
asked anyone sitting around a huge conference table
having a conflict with Dubin to raise their hands so
Dubin could respond, and two others did, but the one
attorney Board Member who was instructed by the
Chairperson not to, didn't, participating in the
Board's disbarment recommendation.

ln Aetna Life fnsurance v. Lavoie, 475 U.S.
813 (1936), this Court vacated an Alabama Supreme
Court judgment because a state supreme court
judge, one of five judges entering judgment, was
34

found

disqualified, Justice Brennan and Justice
Blackburn finding it irrelevant the disqualified judge
had cast the deciding vote, 475 U.S. at 830-831;
Justice Blackburn, with Justice Marshall
concurring, went further, concluding, 475 U.S. at

831-832:

"For h€, Justice Embry's

mere

participation in the shared enterprise of appellate
decision making -- whether or not he ultimately
wrote, or even joined, the Alabama Supreme Court's
opinion " posed an unacceptable danger of subtly
distorting the decision making process."

More recently, this Court

in

Williams

v.

Pennsylvania, 136 S. Ct. 1899 (ZOfe), a death
penalty case analogous here, confronted the same
issue as in Lavoie, and in a 5'to'3 decision by

Justice Kennedy, adopted the language and
reasoning of the concurring opinions in Lavoie, I34
S. Ct. at I44'I47: "The Court has little trouble
concluding that a due process violation arising
from the participation of an interested judge is a
defect 'not amenable' to harmless-error review,
regardless of whether the judge's vote was
dispositive."

As this Court warned tn fn Re Murchinson,
349 U.S. 133, 136 (1955): "A fair trial in a fair
tribunal is a basic requirement of due process.
Fairness of course requires an absence of actual
bias."

Third, while references to Dubin's weekly
radio broadcasts were not directly mentioned in the
disbarment order, they definitely bothered some
judges and some opposing attorneys to hear their
conduct and their cases and decisions discussed live
and contemporaneously for the first time regularly
in public, even in a fair and professional manner.
But the staff of the ODC were outwardly more
35

than bothered, culminating in an early attempt to
suspend Dubin calling his show in court papers a
"menace to the general public."

V. CONCLUSION

Attorneys are not servants of the court. And this

is not early

England. And the United States
Constitution does not exclude attorneys from its

protections.

The right to practice law, once earned, is
right It is Dubin's only livelihood.

a

property

Dubin has been a contributing Member of the
Legal Profession for 57 years. He and every other
attorney similarly situated deserves this Court's
robust constitutional protection.
Respectfully submitted,
/s/ Gaty Victor Dubin
GARY VICTOR DUBIN
Counsel of Record
Attorney for Petitioner

Honolulu, Hawaii
February 25,2021

36

CERTIFICATE OF COMPLIANCE
I hereby certify, pursuant to Supreme Court Rule 33.1(h), that this Pefffion for Writ

of Certiorari consists of 8,976 words (less than the maximum 9,000 allowed, excluding
headings and signature block), as determined by the word count function of the Microsoft
Office Windows operating system utilized.
DATED: Honolulu, Hawaii; February 25,2021.

/s/ Garu Victor Dubin
GARY VICTOR DUBIN
Counsel of Record

